                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al0040032                                                                                 Page 1 of 1



                  NSF OIG received an allegation of plagiarism in a proposal submitted to NSF. 1 During
          the inquiry we identified copied material in one NSF proposal. The Subject's2 response to our
          inquiry did not dispel the allegation, and we referred the matter to the Subject's institution3 for
          investigation.

            ,     The University concluded, based on the preponderance of evidence, that the Subject
          carelessly4 committed plagiarism, deemed a significant departure from accepted practices, and
          took actions to protect the University's interests. The University did not identify a pattern of
          plagiarism in other documents the Subject authored.

                 We reviewed the University's findings. We noted the Subject repeatedly claimed to not
          have authored any of the plagiarized material in the proposal himself. He attributed the copied
          text to two post-doctoral researchers 5 and a German collaborator, 6 and provided documents
          supporting his claims? We reviewed these documents. We concluded the post-doctoral
          researchers were responsible for authoring most of the copied material, but determined that each
          individual had copied only a minimal amount. Accordingly, we did not deem their actions a
          significant departure from accepted practices, a necessary element for making a finding of
          research misconduct. We could not however establish the German collaborator's responsibility
          for the remaining copied material.

                 We sent the two post-doctoral researchers and the PI Questionable Research Practice
          letters, reminding them of their responsibilities in submitting proposals to NSF which include
          appropriate citation of sources. Accordingly, this case is closed.




                          --··
                                                        who fmalized the report, noted that although the Committee found
                                           himself was of the opinion that in fact the Subject had acted recklessly.


          7
            Report, Exhibits XI and S-3. We note that, w h i l e - does appear to have authored text labeled A based.on
          the email traffic and documentation in Exhibit S-3, the track change document does not specify that he is the
          individual who made the changes, during which the plagiarized text was inserted.




NSF OIG Form 2 ( 11102)
